CERTIFICATE OF SERVICE

I certify that a copy of the foregoing Petition for Writ of Certiorari,
Appendix to the Petition and Motion to Proceed in Forma Pauperis has been/will be
served upon opposing counsel by hand delivery and/or depositing a copy of same in
the United States mail, postage prepaid and addressed as follows:

Assistant District Attorney Ben Cohen

Chief of Appeals Division

Orleans Parish District Attorney’s Office

619 South White Street
New Orleans, Louisiana 70119

This 19th day of March, 2021.

EE nna

Sheila C. Myers, La. Bar #09871

 
